<html>
<title> - PERFORMANCE MANAGEMENT IN THE DISTRICT OF COLUMBIA: A PROGRESS REPORT</title>
<body><pre>[Senate Hearing 106-598]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-598

 
 PERFORMANCE MANAGEMENT IN THE DISTRICT OF COLUMBIA: A PROGRESS REPORT

=======================================================================


                                HEARING

                               before the

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION


                               __________

                              MAY 9, 2000

                               __________

      Printed for the use of the Committee on Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
64-985 cc                   WASHINGTON : 2000

_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402



                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania          JOHN EDWARDS, North Carolina
JUDD GREGG, New Hampshire
             Hannah S. Sistare, Staff Director and Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                  Darla D. Cassell, Administrive Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                  GEORGE V. VOINOVICH, Ohio, Chairman
WILLIAM V. ROTH, Jr., Delaware       RICHARD J. DURBIN, Illinois
JUDD GREGG, New Hampshire            ROBERT G. TORRICELLI, New Jersey
                  Kristine I. Simmons, Staff Director
   Marianne Clifford Upton, Minority Staff Director and Chief Counsel
                     Julie L. Vincent, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................     1
    Senator Durbin...............................................     8

                                WITNESS
                          Tuesday, May 9, 2000

Hon. Anthony A. Williams, Mayor, District of Columbia:
    Testimony....................................................     3
    Prepared statement...........................................    19

                                Appendix

Attachment I.....................................................    24
Attachment II....................................................    31
Attachment III...................................................    33



 PERFORMANCE MANAGEMENT IN THE DISTRICT OF COLUMBIA: A PROGRESS REPORT

                              ----------                              


                          TUESDAY, MAY 9, 2000

                                     U.S. Senate,  
     Oversight of Government Management, Restructuring,    
                 and the District of Columbia Subcommittee,
                        of the Committee on Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:40 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. George V. 
Voinovich, Chairman of the Subcommittee, presiding.
    Present: Senators Voinovich and Durbin.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. The hearing will come to order.
    We have a very busy witness with us here this morning. 
Mayor, we are very happy to have you come back and visit with 
us, and Ms. Norton, we are glad to have you here with us. 
Welcome.
    Today the Subcommittee on Oversight of Government 
Management, Restructuring, and the District of Columbia meets 
to discuss performance management in the District of Columbia.
    First of all, I would like to congratulate the Mayor on 
some of his accomplishments. One of them that we worked 
together on was the District of Columbia College Tuition 
Assistance Act, and I understand, Mayor, that has now been 
expanded so that D.C. graduates who aspire can attend 
universities nationwide, exercising one of the options that you 
had in the legislation in terms of whether there were enough 
openings at the University of Maryland and at the University of 
Virginia, and apparently there were not, so it is now open 
around the country.
    We are pleased that we were able to work with you on that 
initiative, and I was also pleased that the private sector 
stepped to the table to be supportive, and they are well on 
their way to raising $30 million for a scholarship fund, so 
that now the residents of the District have the same 
opportunities as if they were to live in one of our States, and 
the added benefit, of course, with the scholarship program.
    Mayor, you have also engaged the private sector in a 
broader discussion of how public-private partnerships can help 
transform the District into that ``shining city on the hill,'' 
and I want to congratulate you on this initiative and again 
pledge to you publicly that I am willing to help in any way, 
and if the business community focuses in on some things that 
they think they would like to accomplish, I would be more than 
happy to try to help you market it nationwide so that you can 
get more than just the folks who live in and do business in the 
District.
    Mayor Williams. That is great.
    Senator Voinovich. This Subcommittee and Congress as a 
whole remain committed to fulfilling our responsibility to 
exercise oversight over governance in our capital city. 
Congress is responsible for approving the spending of $1.9 
billion in Federal funds in the District of Columbia, and it is 
our job to ensure that this money is spent efficiently and to 
maximize benefits to D.C. residents.
    Just for the record, I asked my staff how much money the 
District receives from the Federal Government, and it is $1.9 
billion, but it is understood that $1.5 billion in Federal 
funds is to administer various Federal grants provided to 
State, county and local governments. So those are the kinds of 
dollars that you would get just ordinarily because you are 
performing the functions that counties, States and 
municipalities would around the country. Then, there is an 
extra $435 million in special Federal payments to the District 
of Columbia in regard to court operations, court services, and 
offender supervision; and of course, the $17 million in the 
D.C. College Access Program.
    That gives everyone an idea of just how much money and 
where it is coming from, and it should explain why Congress is 
interested in reviewing what the District is doing.
    In that regard, 1 year ago, this Subcommittee invited 
Control Board Chair Rivlin and Council Chair Cropp and you, 
Mayor Williams, to share your thoughts on how the District 
could improve its performance-based management. As I think 
about it, that was pretty early on in your term. You were a new 
Mayor coming in, so you were still getting your feet wet--and I 
suspect you probably still think you are getting your feet wet. 
It took me about 5 years.
    We have invited the Mayor to meet with us again today to 
report on the District's progress since last year. The Mayor 
has unveiled some promising proposals at our last meeting, from 
the short-term action items, to the D.C. Scorecard, to the 
polling of District residents in order to determine their 
highest priorities for the city administration.
    I look forward to hearing Mayor Williams' progress report 
on achieving these goals. There is no question that the Mayor 
has devoted considerable time over the past year to determining 
what the goals should be for the District by holding 
neighborhood forums, compiling the results into comprehensive 
management strategies and then establishing goals for the 
District Government agencies.
    On April 20 of this year, the Mayor released the first 
official set of Scorecards for the city government. These 
Scorecards encapsulate the top priorities for each deputy mayor 
and agency head into simple checklists. They are easy for the 
public to understand and are useful, too, for holding 
government executives accountable for their results.
    I am somewhat concerned, however, that the District may not 
be as far along as it should be in terms of establishing 
performance expectations. The General Accounting Office 
released a report last month that raised some valid concerns 
about performance management in the District, reporting that 
the city was not able to fully comply with any aspect of the 
District of Columbia Financial Responsibility and Management 
Assistance Act of 1994. That law requires annual performance 
plans which establish goals for the next year and annual 
performance reports which evaluate the progress made in meeting 
the previous year's goals.
    According to GAO, the Mayor's performance report does not 
contain the required information for any of the 542 agency 
goals identified in the accountability plan. The report also 
does not describe as required the status of the court orders 
pertaining to the 12 civil actions concerning activities of the 
District during FY 99, nor does it identify who is responsible 
for seeing that a particular goal is met.
    The District's failure to report on the goals set in the FY 
99 performance accountability plan, Mayor, was of great concern 
to me. However, my staff tells me that these goals were set by 
the Control Board, not by the Mayor, and that the Mayor is 
starting fresh with his own goals for his administration. I 
understand that explanation, but I hope that next year, we can 
expect to see the District's performance accountability plan in 
full compliance with the Federal law.
    I am also concerned about the status of the District's most 
recent performance accountability measures as included in this 
year's budget request sent to the Council earlier this year. A 
majority of the measures had targets that were left to be 
determined or had the exact performance goals of last year. On 
the other hand, I suspect, Mayor, that year after year, you may 
have the same performance goals, because it is going to take 
that long to reach some of them; they are very ambitious.
    Finally, with the performance accountability plans, the 
D.C. Scorecards, and other performance monitors like the 
Neighborhood Action Plan, I am concerned that the city lacks 
one comprehensive plan for holding the agency heads 
accountable. While all the ingredients seem to be present at 
this point, they appear to be spread throughout numerous 
performance plans.
    While I applaud the important steps the Mayor has taken to 
this point, I believe that more remains to be done to produce a 
coherent, easily understood performance plan, and I look 
forward to learning about your strategy, Mayor, to meet these 
challenges.
    I appreciate your being here today to report on the 
District's progress and management reform.
    When Senator Durbin arrives, I will yield some time to him 
to make an opening statement.
    Mayor, again, we are glad to have you here. I appreciate 
the good relationship that we have and the telephone calls and 
the occasional meetings.
    Please proceed.

 TESTIMONY OF HON. ANTHONY A. WILLIAMS,\1\ MAYOR, DISTRICT OF 
                            COLUMBIA

    Mayor Williams. Thank you, Senator, and thank you for your 
interest in and support for our city, and particularly for your 
commitment to work with us in broadening our public-private 
partnerships to include the private sector all over our 
country, because we are our Nation's Capital, and we think that 
businesses all over this country should have a sense of 
responsibility and ownership and commitment to what happens in 
our city, and we certainly welcome that, and I want to thank 
you and Senator Durbin when he gets here, our congresswoman, 
Congresswoman Norton, who has joined me, for the opportunity to 
testify on what we are doing in performance management in the 
District.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mayor Williams appears in the 
Appendix on page 19.
---------------------------------------------------------------------------
    In the last 15 months of my administration, the District 
Government has made great strides in instituting a performance 
management system that I believe does introduce accountability 
for each and every agency, for every employee and, as we get 
into this more extensively, I hope that for our business 
community, our faith community and our nonprofits, in order to 
really transform the way we do business, making us more 
responsive to our citizens.
    I believe the approach that we have taken, while it leaves 
much to be done, and I would readily agree with that, has shown 
promising results in our first year, and we are going to 
continue to drive change using this system.
    When we took office, we found the challenges that we 
inherited were quite daunting. For one, accountability for the 
District workforce was rare, if nonexistent. We had a deeply-
entrenched culture resistant to change. There was an 
infrastructure decimated by deferred maintenance and 
disinvestment; and technology needs that were grossly 
inadequate.
    I would argue that a year has made a dent in many of these 
things, but it has made only a dent.
    My first priority to get started was to restore faith in 
government by demonstrating rapid, visible improvements in 
basic services, so I challenged my cabinet to set an aggressive 
short-term action agenda. We set concrete objectives with 
measurable deadlines ranging from a month to no more than a 
year, and I am proud to report that we completed 90 percent of 
them during 1999.
    However, short-term initiatives are only a down payment. To 
me, they were there only to build that initial trust and 
confidence in the government, to give us a little momentum, but 
ultimately, the challenges facing our city are significantly 
greater, and we recognize that.
    I would like to simply submit for the record the full list 
of the initiatives, but I want to highlight a few of them and 
describe how we are building on these short-term successes.\1\
---------------------------------------------------------------------------
    \1\ Attachment I referred to appears in the Appendix on page 24.
---------------------------------------------------------------------------
    For example, we restructured electrical and building permit 
processes, eliminating a several-months-long backlog of 
electrical permits by February and completing 80 percent of 
complex building reviews within 30 days through 1999. Today, 80 
percent of electrical permits are issued within 48 hours, and 
95 percent of complex building plans are reviewed within 30 
days, which is a significant improvement over the past.
    We established a single phone number for residents to call 
for information and service requests with the launch of the 
Citywide Call Center, 727-1000, in April 1999. Today we average 
more than 2,000 phone calls per day, and we can track data on 
frequently-requested services and how long it takes to resolve 
them. We are building a database where our citizens get a case 
number, and we hope that in the future--and we are building 
this process now--we will be able to actually track where their 
response is somewhere in the agencies as we are responding.
    There is a lot of work to be done. We have gone from a 
system where people rarely answer the phone and were impolite 
to where people now answer the phone, are polite, do not always 
know what we are talking about, but they are polite, and I 
think that is progress.
    Welcome, Senator Durbin. I am happy to stop if the Senator 
wants to make a statement.
    Senator Durbin. No. Please continue.
    Mayor Williams. We targeted open-air drug markets in six 
communities, and arrests increased through stepped-up 
enforcement. Now the police department is closely tracking drug 
activity statistics to document how this short-term action will 
show reductions in drug activity over time. This initiative has 
evolved into the Capital Communities Program, a comprehensive 
strategy to focus a broad spectrum of resources on distressed 
communities. In some of these Capital Communities Programs, we 
have seen some indicators of crime go down by more than 50 
percent.
    So on the basis of our building this initial confidence in 
the government with the short-term goals, we decided to do 
something a little untraditional. We decided that in order to 
build a comprehensive performance management system in the 
government, we needed to empower citizens to set the priorities 
for our government. I believe that our citizens have had 20 to 
25 years of pent-up civic pride; they love our city, and they 
are itching to make a difference in our individual 
neighborhoods. For far too long, local government has not been 
a reliable partner for our citizens. We wanted to change that, 
and we started with what we are calling Neighborhood Action, 
which I would argue is the broad umbrella that will bring all 
these plans ultimately together.
    At our first summit in November, more than 3,000 citizens 
from all over the city answered the call and spent over 7 hours 
developing a plan for the city. And it was not just a chit-chat 
session. We compiled these comments and used citizen priorities 
to put together the budget for next year. We used them to 
develop a city-wide strategic plan with very specific 
measurable goals for each agency of government.
    The plan is organized around five broad themes that are 
really common to many cities and certainly are important to our 
city. The first is achieving Unity of Purpose. An example of 
Unity of Purpose is building public-private partnerships. 
Another example is building partnerships with the faith 
community; making government work--answering the phones, paving 
the streets, managing fiber optic cuts; promoting economic 
development--bringing in commercial investment; producing 
housing; strengthening families, children and youth--the tragic 
story of what happened to Brianna is an example of the work we 
need to do in strengthening families and children; and finally, 
building and sustaining healthy neighborhoods and public safety 
is a premier example of the need in that area.
    Our detailed plan, though, is a great way to keep our 
government focused and to hold agency directors accountable, 
but by itself, I believe it is not going to engage our 
citizens. I want our citizens to be able to see the progress we 
are making in achieving their priorities, and until they have 
some evidence that our government is a reliable partner, I 
believe they will have less incentive to invest themselves, 
their own resources, their own synagogues, churches, and 
nonprofits in the interests of our community.
    So we have developed a set of Scorecards for myself, for my 
deputy mayors, and for each of our agency directors, based on 
the citizens' goals in this plan, and they are listed on 
Attachment II,\1\ entitled ``Going to Bat for the District,'' 
and they are available at our website, washingtondc.gov.
---------------------------------------------------------------------------
    \1\ Attachment II referred to appears in the Appendix on page 31.
---------------------------------------------------------------------------
    We are building a virtual e-government, and I hope citizens 
will keep track of our progress this way. Every citizen can see 
the score every day; they can see how it changes. And I think 
that this government in so doing will become more accountable 
to our public.
    Now, issuing a Scorecard is similar to the strategy of last 
year's short-term action agenda in that we define the goals and 
inform the public of what they are. We gave agency leadership 
the resources and support needed to meet their goals, and we 
established a system to hold them accountable at the end of the 
day.
    I recognize that many of the goals we set for ourselves are 
a stretch, but I would rather have ambitious targets and come 
close, rather than meet or exceed timid, weak goals. So this 
year's goals, for example, include some real stretches. One, 
for example, is 2,000 new and rehabilitated housing units under 
construction by December 2000. This is well in excess of last 
year's production, which is already significant in and of 
itself.
    Another goal is the reduction of 911 response times to 8 
minutes for 90 percent of critical medical calls for service. 
Right now, just to give you a sense of context, only 42 percent 
of calls meet that standard. So there is a lot of work to be 
done to meet that goal.
    Another goal is reduced wait times at Department of Motor 
Vehicles to 30 minutes or less for 80 percent of driver's 
license and inspection transactions. We had declared that we 
were meeting a 30-minute goal until we actually started 
measuring what was happening, and then we recognized that, 
whoops--we were really far away from that 30-minute goal. To 
me, the Department of Motor Vehicles is a great example of 
where these goals are meaningless, these Scorecards are 
meaningless, unless there is some independent validation, and I 
will talk about that in a second.
    But the Scorecard is only one element of the broader 
performance management system we have in place for evaluation. 
It is a public statement of a few commitments we are making, 
but it is not the exhaustive list of everything in our Citywide 
Strategic Plan.
    To capitalize on short-term successes and to institute 
long-term systemic changes, last spring, I instructed agency 
directors to develop strategic plans evaluating existing 
practices and proposing comprehensive improvements for their 
agencies. Directors were to make tough assessments of their 
organizations' strengths and weaknesses and competencies; 
question what businesses their agencies were in and what 
businesses they should get out of; and identify strategies for 
change.
    I have set up performance contracts based on these agency 
plans with my deputy mayors and agency directors so that they 
know exactly what they are responsible for delivering, and 
their job security depends on their effectiveness. These are 
attached in Attachment III,\1\ and an example is the DMV 
performance contract. Again, this performance contract, like 
the Scorecard, will be related to the Citywide Strategic Plan, 
which will serve as the one single, unified plan to which you 
referred, Senator.
---------------------------------------------------------------------------
    \1\ Attachment III referred to appears in the Appendix on page 33.
---------------------------------------------------------------------------
    However, we are not waiting for mid-year and year-end 
evaluations to judge agency successes. We are tracking the 
performance contract commitments on an ongoing basis. And to 
give you a flavor of the types of commitments and results we 
are seeing this year, I can talk about DMV, which is one of our 
highest-profile customer service operations.
    Almost every resident has to register a car, have it 
inspected, and get a driver's license. Sherryl Hobbs Newman set 
an ambitious year 2000 goal of 80 percent of license and 
registration transactions within 30 minutes as new data system 
were revealing the extent of the problem with average process 
times of 1 hour or more. The District just announced aggressive 
strategies to move us toward the target by December 2000, for 
example--additional personnel and additional counter bays at 
the C Street main facility; we are going to be open now on 
weekdays later this month until 10 p.m., and we are hoping that 
by distributing volume overall, those hours and throughout all 
those bays, as well as organizing our traffic better, we can 
reach this goal. Also, customer service training will be 
developed and provided by USAIR, an example of a public-private 
partnership. We have also received from USAIR stress management 
for our employees. If you are an employee sitting at the 
counter, and you are dealing with people who have been waiting 
for an hour, they are not always in the best mood or temper. 
This week, we will announce temporary trailers as we explore 
sites for additional facilities. We are building a new 
satellite to the DMV, but we are not waiting for that; we are 
actually going to be putting up temporary sites to relieve the 
load down at C Street. And finally, we will have site designs 
that address parking needs of residents visiting DMV, because 
there is nothing more galling than to come down to register 
your car and find no place to park, then you wait too long, and 
when you come out, you have a $50 ticket on your car. That does 
not put people in a good mood.
    On the Office of Contracting and Procurement, our initial 
analysis of the agency's workload there indicated that nearly 
half of agency transactions were for less than $2,500, but less 
than one percent of the District's contract dollars were spent 
on these small transactions. So we proposed an innovative 
strategy to establish purchase cards for those small 
transactions. This was piloted at our D.C. Public Library in 
November, and nine additional agencies will come on line by 
July 2000. In addition, Contracting and Procurement is working 
with the D.C. Public Schools to deploy purchase cards there as 
part of a broader initiative to empower D.C. Public Schools 
with its own procurement authority. I also list in my 
testimony, submitted for the record, the Department of Parks 
and Recreation.
    But I want to talk briefly about accountability, because 
with performance contracts in place for directors at mission-
critical agencies, the D.C. Office of Personnel is rolling out 
a comprehensive performance management program throughout our 
government in the summer of 2000. Our agencies are developing 
performance agreements for every District employee aligned to 
the Citywide Strategic Plan, which again is the unified plan 
that we are seeking, and all of our agencies' goals and 
objectives. All of these agreements will be in place by October 
2000.
    This is part of my goal to create a Unity of Purpose in 
which we want all of our employees to understand our Citywide 
Strategic Plan and accept and adopt a personal role in 
supporting and executing that plan, and then incorporate the 
goals and objectives of this plan in their day-to-day work.
    How can we be sure that we are meeting these goals? We are 
not just taking agency reports on faith. Agencies are required 
to provide a clear definition of each Scorecard measure, how 
the data is collected, how it is calculated and reported. This 
approach is based on the Office of Management and Budget's 
guidelines to Federal agencies for ensuring verifiable and 
valid performance data. A great example again is the DMV where, 
before we had the schematic system where you can actually 
measure waiting times, we could tell people that we had 30-
minute waiting times, and no one really knew. Now that we have 
some measurement device to actually validate our information, 
we know that we have work to do.
    On remaining work to be done, I believe that my 
administration has made significant progress linking strategic 
planning, budget formulation, performance expectations and 
evaluation, but I recognize and certainly acknowledge the need 
to do much more. Sustaining progress, ensuring valid and 
reliable data, unifying the different plans, and benchmarking 
progress against other jurisdictions are among our objectives 
for year 2000.
    For us, ``performance management'' is not just a catch 
phrase. It is our way to make sure that our students get the 
books they need; it is our way to make sure that our senior 
citizens get the meals they need; it is our way to ensure that 
teachers will be paid on time, that foster families get the 
services they need. In short, it is our way to show that 
democracy can work in the District of Columbia and that we can 
make our way toward the city we all know and love.
    I thank you very much for the opportunity to testify, and I 
would be happy to answer your questions.
    Senator Voinovich. Thank you, Mayor.
    Senator Durbin, we welcome you this morning. I want to 
publicly acknowledge the conscientiousness of Senator Durbin. 
We have been having lots of meetings, and Senator, I really 
appreciate that fact that you are here.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thanks very much, Mr. Chairman.
    I want to apologize for coming in late and also for the 
fact that the full Appropriations Committee is meeting as of 
this moment, and I will be asked to go there for the markup 
shortly. I wear two hats, as the Ranking Democrat on both the 
authorizing and appropriating subcommittees for the District of 
Columbia, so I will try to do both duties, and I thank you for 
your leadership.
    We are fortunate to have in the room two men with mayoral 
experience on a Capitol Hill which is populated by a lot of 
people who apparently want mayoral experience, because they try 
to run your city for you, Mr. Mayor. And I am not one of them--
I think you are doing a fine job. I have seen a lot of leaders 
before you who have tried, and I think you have achieved more 
in the 16 or so months that you have served.
    Delegate Norton, of course, fights this battle on a daily 
basis over in the House of Representatives, and I salute her 
for her leadership.
    I think that your reaching out to the neighborhoods to 
establish priorities--and it has been recognized nationally--is 
the kind of grassroots leadership that the District of Columbia 
needs so the government connects with the people who live here.
    There was a big controversy last year over the proposed tax 
cut that came from the City Council, and as a result of that, I 
asked for quarterly reports from your administration about some 
key indicators that I think really help us to understand 
whether we are making progress in the District of Columbia. 
They run the gamut from public health concerns, rat 
eradication, to questions about public safety, which of course 
are paramount in the minds of everyone who visits and lives in 
the District. But I guess the most important one in my mind was 
children and whether the District is responding, both in the 
schools and in the city services, to the needs of the children. 
This hearing is a good illustration of an effort to make sure 
the best management techniques are in place.
    My only question to you, if I might, Mr. Chairman, before I 
have to leave is whether you feel that the system that you are 
currently using to measure standards starts with good baseline 
data. Of course, you have to establish that before you can 
establish whether or not you are making progress. How do you 
come up with verifiable baseline data in terms of performance 
and services available to the residents of the District of 
Columbia?
    Mayor Williams. Senator, one of the reasons why some of the 
reports that GAO refers to, and the Senator referred to, have 
information left out is not only because in some instances, we 
inherited performance plans, in some instances, we do not yet 
have full authority over parts of the government, part of the 
reason is because we do not yet have the information in some of 
these agencies on which to build a reliable performance 
program. We felt it was important to put in place those 
operations and processes and systems, get the data, and then 
build a plan, as opposed to just putting a plan out there for 
plan's sake.
    So we have made a conscious effort to begin with our 
agencies, come up with an initial discussion of a Strategic 
Plan, then go to our citizens and, working with our citizens, 
come up with a final Strategic Plan and then build that out 
through our budget, build that out through our agencies.
    We have now, for example, begun a compensation 
classification system where every employee will have a sense of 
ownership of this plan. And initially, 1,200 employees will be 
signed on.
    To give you an example of agencies outside our control, we 
have brought in Grace Lopes, who is our representative with the 
receivers in consultation with the different plaintiffs' 
groups, in consultation with the different judges involved. We 
want to establish standards and expectations with them and then 
fold them into our plan. We are trying to work with the school 
system to fold it in and, piece by piece, build one unified, 
comprehensive whole beginning with what we can control and then 
working our way out. And it is painstaking and laborious.
    Senator Durbin. I think you are on the right track, and I 
am really impressed with the job that you have done and hope to 
help you in my capacity here on the Hill.
    Mr. Chairman, thank you for allowing me to say a few words 
before I have to run off.
    Mayor Williams. Thank you, Senator. I appreciate it.
    Senator Voinovich. Thank you, Senator.
    Mayor, I would like to just focus on a couple of big areas 
before we get into some of the details. Did you understand in 
my opening statement what I was driving at in terms of 
coordinating and getting all these plans organized so that it 
is easy to understand?
    Mayor Williams. Yes.
    Senator Voinovich. I would be interested in your comments 
about how you think that can get done.
    Mayor Williams. As you know, I think it was part of the 
Appropriations Act and maybe the Revitalization Act for the 
District, there was a requirement analogous to GPRA that we 
have a performance plan for the District and then a management 
report on the basis of that plan.
    As the report indicates--and I make no contest with it--
there were problems in that we inherited a planning structure 
that had been started by the Control Board, and everyone knew 
that we were going to put in place our own planning and 
reporting structure, and we have begun to do that.
    It was also mentioned that there were many goals at lower 
levels that were left out; there were some agency managers who 
were left out. In the case of agency managers, because we are 
in the process of working our way into the agencies, creating 
this Management Supervisory Service, which I would be happy to 
talk about and where in many instances there may be some 
changes, we want to wait until new managers were in place who 
felt sponsorship of the plan, who accepted the plan, and to put 
their measures in place as opposed to again imposing these 
measures on someone who may not have been part of creating 
them, may not have had ownership of them.
    Finally--and I think this is a big part that really isn't 
referred to in the GAO report--you have receiverships, you have 
the schools, you have independent boards and commissions that 
are not directly under the authority and in some instances are 
not at all under the authority of the Mayor, and here, it is 
going to take coordination and cooperation of independent 
entities to work toward this unified whole.
    I am confident that we can do that, but we wanted to begin 
initially with agencies under our own control, because it is my 
vision that we not only have receiverships involved in this, 
the schools involved in this, the boards and commissions 
involved in this, but I have taken some initial steps--and 
again, this is a long road--to try to get the business 
community and the faith community involved in this.
    To give you an example of the faith community, as an 
initial step, in addition to our regular Mayor's prayer 
breakfast which the city has held now for 25 years, we had a 
National Conference on the Role of Faith Community and 
Community-Building, and we had Reverend Floyd Flake from New 
York as our keynote speaker, talking about ways in which the 
faith community can play a role in family counseling, crisis 
intervention, support for children, and education.
    My vision is that ultimately, if you look at a performance 
plan for our community, it is not just what we expect the 
government to do but what all of us expect one another to do, 
if that makes sense.
    Senator Voinovich. The thing that I am really interested 
in, in anticipation, a year from now is that the Neighborhood 
Action Plan presents goals for each department and agency, and 
that is a great idea to go out to the citizens and ask what 
they want, talking to the customers--too often we do not talk 
to the customers, and we decide what they want, and then we 
find out that it is not really what they want--but you have 
that.
    Then, the performance contract lays out three levels of 
performance--below expectations, met expectations, and exceeded 
expectations. And then, the performance measures in this year's 
budget proposals appear to identify the responsible manager for 
each goal.
    I guess what I am driving at is that you have your 
neighborhood goals, and you have your Scorecard, and to make 
sure that is all in the same performance plan so that you do 
not look at the Scorecard over here and see how you are doing 
here, and you have your performance plan over here--because in 
so many instances, it is the same stuff. I just think that from 
a measurement and accountability point of view, if you have it 
in one document----
    Mayor Williams. Right--and we could go into great detail on 
this in September. But we could start with a citywide plan that 
is a combination of what we are hearing from our agencies and 
from our citizens, and there would be a set of stated goals. 
Then, from those goals would come the measures that we are 
using to put into performance contracts with the agencies. From 
those same goals would come the measures that go into the 
budget, which really serves as the performance plan for the 
District for purposes of this act. We would like to see the 
timing change so that when we submit the performance plan, we 
are also submitting the budget, because they really should go 
together, as you know, and we want them to go together.
    From these same goals would come not only the budget and 
these performance contracts, but would come the Scorecard, and 
these would be the measures that we are testing in terms of 
this evaluation.
    So I really see all of it as being connected.
    Senator Voinovich. That does provide a problem, because if 
I am not mistaken, I think the law says that the performance 
plan is due on March 1. I know that you have decided that you 
want to wait until the budget--do you want to go into that? 
Because we have had some people look at that, and they have 
come back, and they really do not feel it is necessary that the 
performance plan and the budget have to be at the same time; 
that there is no reason why you cannot put a performance plan 
in earlier and then submit your budget to the Council.
    Would you like to comment on that?
    Mayor Williams. Well, I think that to work well, the 
performance plan and the budget have to work together and 
really have to contain a lot of the same information, because 
modern budgeting is performance budgeting, and folks who say 
that we can do the performance plan and then do the budget are 
correct in the abstract, but they have got to be down where we 
are, trying to do a budget in the District. We have one of the 
most complicated budget processes in the Nation because of the 
number of people who are involved. We are doing our budget 
without the same--even in the best of circumstances, for 
example, when we get our audit done in February, we are doing 
our budget without the kind of lead time that other 
jurisdictions have to properly forecast economic conditions, 
revenues and expenditures. We have got to go through a very 
laborious and painstaking process.
    In the best of worlds, I would like to see our city have a 
biennial budget process because we spend such an enormous 
amount of time on the budget. We finish one budget, and by the 
time it gets to the Congress, we have already started another 
budget.
    So in the midst of all this, we have to also give the 
proper weight and attention--and I want to give enormous weight 
and attention--to performance planning on a different cycle--we 
are just adding another cycle to a system that already has a 
lot of cycles. And it certainly can be done in the abstract, 
but it is very difficult.
    Senator Voinovich. The law is that it has got to be by 
March 1, and I think if it is possible that you could do that 
by next year by March 1, I think it would be well-taken; and 
maybe you will be in a much better position to do it after you 
have put the two of them together this year.
    The other thing is that many people have no comprehension 
in terms of the responsibilities you have. You have the typical 
municipal responsibilities, you have county responsibilities, 
and you have some State responsibilities. How many different 
budgets do you have--is the city budget coincidental with the 
Federal budget? When I was a county commissioner, we had the 
county budget which was on a July cycle, we had the Federal 
budget which was on an October cycle, and then we had a city 
budget that was on a calendar, and we had to try to keep track 
of the revenue sources.
    Is the city budget based on the same as the Federal budget 
cycle, beginning in October?
    Mayor Williams. Right. Our budget is a Federal budget, and 
most State and local jurisdictions that I know of are July 1, 
and June 30.
    Senator Voinovich. So you have one budget calendar--your 
city budget then coincides with the Federal budget?
    Mayor Williams. Right, and we are trying to jam an enormous 
amount of processing, planning, coordination--you are trying to 
wrap up your audit of 1 year; you are beginning your execution 
of another year, and in many instances, you have just started 
your execution because the budget did not start until January 
because people could not agree on whatever they could not agree 
on; and you are also trying to plan another budget.
    I do not know what is particularly sacrosanct about March 
1.
    Senator Voinovich. I do not, either, but that is what the 
law says.
    Mayor Williams. Yes.
    I was also going to mention that most--I am trying to think 
if there are some--but from my own experience, I know that the 
way the GPRA was established and constructed, the Federal 
agencies submit their performance plans with their budget. So 
just to be consistent, I think it would make sense for us to do 
the same. It is not the end of the world; it is just something 
that would certainly allow this planning process to work better 
and more efficiently for everybody involved.
    Senator Voinovich. My only comment is that you are going to 
do it for the first time this year, and you might give some 
thought to doing it in terms of the deadline for next year.
    One of the things that has come to the attention of this 
Subcommittee is the human capital crisis in the Federal 
Government. With the low unemployment, would you like to 
comment on your ability to attract talented people to head 
various city agencies and how that is coming along?
    Mayor Williams. In every position that I have filled at a 
high level in this government, I have worked with the business 
community. In the first instance, as I got started, one of our 
major companies here gave us four or five headhunting firms to 
work with us on a whole range of different positions, and I 
expected a long line of people at my door, ready to come on in. 
But a tight labor market, the daunting challenges that confront 
the city, and frankly, a history of this city where we have a 
reputation for bringing everyone out into the palace courtyard 
and executing them periodically, just created a situation where 
that line was not as long as I would have liked it to be.
    We have continued to work with our business community and 
the Federal Government to recruit the very best and most able 
people, but I think that our medium- and even long-term 
salvation is really to spend a lot of time and attention on 
this Management Supervisory Service and groom our own farm 
team. Looking at your own city and other cities, one of the 
things that impressed me was that for many of these positions, 
they are hiring people in the city; they are hiring people who 
worked in the government or worked in the private sector in the 
city. There is this talent pool in the city that they are 
drawing from. I think we need to build and maintain that same 
talent pool here so that every time there is an opening, we can 
readily draw on ready talent that we have already nurtured and 
groomed in our own ranks.
    I think that having a Management Supervisory Service where 
everyone is working at will, in exchange for top-quality pay, 
is going to allow us to do that.
    Senator Voinovich. Well, I must say, looking at what we are 
doing on the Federal level, that we have some major problems, 
because by 2004, 31 percent of our people will be leaving, and 
another 21 percent will be eligible to retire. It might be 
interesting for you to get a little snapshot of exactly where 
your workforce is in terms of retirement.
    The other issue is the competency that you need in your 
various departments and getting a handle on it. So often, 
whether you are going to be able to perform some of the things 
that you want to--not often, but most of the time--has to do 
with whether you can get the qualified people to do the work. I 
think the issue of human capital--and we will make something 
available to you--is really an issue that, in putting together 
performance plans and other things, sometimes seems to get the 
back of the hand; you put it together, and nobody is thinking 
about what kind of people are we going to need in order to 
achieve these goals that we have set for ourselves.
    The other thing I would be interested to know is what you 
have done in terms of benchmarking. You mentioned your 
Department of Motor Vehicles. Have you examined other 
departments around the country in terms of how they handle 
their situations, so you could copy those that are working? How 
are you going about making that improvement to reduce it down 
to that--I think your goal is a 30-minute waiting period.
    Mayor Williams. At a very broad macro level, as you know, 
in my first year, I spent a lot of time in other cities looking 
at how they did business and really looking at individual 
agencies and how they worked, collecting information, and began 
benchmarking at a broad level, a citywide level, if you will.
    We have worked with an organization called the ICMA, and my 
first budget last year had a lot of benchmarking information; 
and we plan a systemic effort now of including this same kind 
of comparative information in the performance plan that we will 
be doing in the next year, and in the next budget and the next 
performance plan will have a heavy dose of this benchmarking 
information, because for one thing, it gives us a way to 
understand what we need to do in terms of performance, and it 
also is data that we need to understand what right-sizing our 
government means. Everyone believes that we can right-size the 
District Government, that it is still inefficient and out-of-
size in many, many different ways, but to what level.
    To give you an example, in the police department, we have 
some benchmarking on the police department. We can use this 
information to determine over the long run where we want our 
police department to be, or over the long run, where do we want 
DMV to be.
    Sometimes, though, you get conflicting information. New 
York City has a tremendous drop in crime, has the highest 
number of officers per capita in the country, but at the same 
time, San Diego had the greatest drop in crime of any of the 
major cities, and they have the lowest ratio of police per 
capita.
    Senator Voinovich. That is one of the things that we talked 
about earlier, and I would love to have you come back in 
September to talk about how you are going to coordinate all of 
these plans so we can get ready for next year, and I would also 
like to go into more detail on the police department. It is an 
interesting issue in regard to size. So often, it is not how 
many you have but what you do with the ones that you have.
    Do you have any idea how many or what percentage of your 
department is employed out on the street?
    Mayor Williams. The chief and I would both agree it is 
still too little, but we have made a goal over the next year to 
get 200 more police officers out on the street. That is a 
combination of 150 officers that we hope to recruit either 
laterally or through new hires and 50 that we are going to get 
from behind desks as part of this civilianization program.
    Having said that, though, I think the chief has done a good 
job in two things. He has done something we used to call 
``Summer Mobile Force,'' and we are now just calling ``Mobile 
Force,'' because we do it all year, where we have a special 
deployment of police out on the street at any given time at 
night. We have also created something called ``Power Shift'' 
that you may have heard some controversy about, where we have 
tried to align the deployment of our officers not 9 to 5, but 
to the time when crime is most likely to occur, which as you 
know is not 9 to 5--it happens in the evening. That has 
definitely had an effect out there in the neighborhoods.
    Senator Voinovich. Do you have all two-men cars, or do you 
have one-man, or does it vary?
    Mayor Williams. I would say, based on the operation and 
division, it varies.
    Senator Voinovich. So there is no requirement that you have 
two people in each automobile?
    Mayor Williams. On that, I could get back to you on what 
the actual requirement is.
    Senator Voinovich. Yes. As I said, I would really like to 
get into some of the detail in terms of deployment and how they 
are deployed and response time.
    You were saying regarding Emergency Medical Services that 
you want to get it down below 8 minutes; is that correct?
    Mayor Williams. Down below 8 minutes, and it is a 
combination of the actual response time of the fire and EMS and 
the actual processing in the call center. We are doing our 
share in terms of building a cadre of people who are better 
able to respond to the calls and answer them effectively and 
professionally, our own system, and working with Bell Atlantic, 
a private vendor, to see that we have upgraded their component 
of the system as well, because there is a systems component, a 
people part, and the fire and EMS part. On the fire and EMS 
part, we have launched a pilot under former Chief Tippett to 
cross-train our fire suppression and EMS people so that your 
first-line responder is better able to respond to that 
emergency, because what actually happens in many instances is 
that you have someone respond, but they are not able or 
equipped to respond to that medical emergency. So we are trying 
to change that.
    Senator Voinovich. I know a little something about that, 
because last year, we had an emergency in Cleveland, and I was 
not aware that they had changed the system, but not only did 
EMS show up, but we had a big fire truck come down the street. 
That is the new protocol--they send EMS and the fire service. 
Of course, my question was what if a fire occurred at this 
time, and apparently, they would respond to the fire; but they 
decided to back up the EMS. It was amazing to me, because they 
got there in about a minute and a half. It was just 
incredible--and I do not think they were waiting outside the 
house.
    Mayor Williams. One thing I have learned as Mayor is that 
there are fire suppression personnel, and there are EMS people, 
and they are different; and there is a fierce debate around the 
country on this whole issue.
    Senator Voinovich. And that debate is still going on in my 
home town.
    The interesting thing is to find out how other people are 
doing things, because you have to jump-start some things. I was 
going to say that best practices in terms of things like 
procurement, using the Smart Card and doing some of the lower 
purchases using the card instead of the typical paperwork that 
one has to do in terms of procurement, is a big issue.
    Mayor Williams. I blatantly steal from other cities, and 
they know I do that.
    Senator Voinovich. There is nothing wrong with that as long 
as they are best practices and they are working.
    I just want to emphasize again the importance of the human 
capital part of the job in terms of the quality of the people 
that you have, the ability to keep those who are quality, the 
ability to attract new people to come to work for the city, the 
issue of incentive programs, the issue of training of your 
workers, and the issue of empowering people who work for you, 
because I really believe that those of us in government are 
going to be in a more and more difficult position in the next 
couple of years in terms of holding the people that we have and 
also trying to encourage them to come to work for us--
particularly people who have special skills. As we move more 
toward technology, it is going to be more and more difficult to 
attract them, because the private sector is really doing a job 
of enticing them to go to work for them. It is a terrible thing 
to wake up one day and find out you do not have the folks; or, 
in the alternative, I recall when I became Mayor of Cleveland 
that one of the problems we had was that our salary schedule 
was not competitive. My folks said you cannot go to the council 
and ask them for more money, and I said why not. They said, 
well, you are asking for more money to hire people. And I said, 
if they want me to hire good people, I have to have a salary 
schedule that is competitive. So I said let us go and talk to 
them about it. And it was amazing, after I explained what the 
situation was and the kind of people that we wanted to bring to 
the city and where we were in terms of our salary schedule, 
that they got it, and they adjusted the salary schedule so we 
could attract those individuals.
    Again, so often, there is the reaction that these are 
``government workers.'' Well, I think government workers are 
the finest workers we have in America and are very, very 
underrated, and I think that if we are going to keep the good 
ones and attract the other ones, we have got to have a really 
good plan in place that will create an environment where they 
want to stay with us because they feel they are challenged, and 
they are being recognized, and also have a program where you 
can encourage new people to come in and go to work for you.
    Mayor Williams. I know, Senator, in our city--this may hold 
true with the Federal Government--as far as our demographics, 
we have a huge number of people now who are retiring. So the 
good news is that we can use this as an easier way--I will put 
it that way--to bring our government to its right size without 
huge RIFs or devastation of the work force. But the bad side of 
it is--you are right--that if you are not careful--and this has 
happened to our city in the past, where we had to make some 
serious cuts, and we used early buyouts, for example, early 
retirement--if you are not careful, you lose a lot of your 
institutional knowledge and wherewithal and expertise.
    Senator Voinovich. You just gave me an idea, Mayor--maybe 
that is one reason why we have even more to worry about in the 
Federal Government. People reach age 55, and they can retire 
and go to work for the D.C. Government--and I know you are not 
out recruiting them right now.
    Mayor Williams. It is an interesting thought, though. 
[Laughter.]
    Senator Voinovich. Last but not least, you and I have 
talked on several occasions about cooperative agreements, and I 
called you in particular about the Hill, and I would like to 
report to you that we have had some excellent relations with 
Gary Albrecht, and from what I understand there is a good 
relationship, a cooperative agreement, between the D.C. Police 
and the Capitol Police, but that we have other agencies here on 
the Hill that should be part of those cooperative agreements. 
So I would like to continue to pursue that with you and would 
like to talk about that again in September to see how much 
cooperation you have been able to get to see if we cannot 
enhance the reaction to crime not only on the Hill, but also to 
deal with some of the other agencies that we have around 
Washington. For example, I know that after the tragedy that 
occurred at the Zoo, you called and talked about that issue.
    So we are going to do everything we can to encourage 
Federal agencies that have separate security departments to 
investigate the opportunities they may have to work more 
closely with the District. I really believe that if those 
cooperative agreements can be entered into, and there is more 
communication back and forth between the security forces here 
in the District, that everyone will be a lot safer, and we will 
be doing a better job of utilizing the resources that we 
currently have.
    There is no reason why there cannot be much better 
communication and more cooperation among the various police 
entities that we have in the District.
    Mayor Williams. I recall, Mr. Chairman, before you were in 
your current position and I was Mayor--this was during the 
height of our fiscal crisis and our other problems--I was 
pushing very hard for cooperation between the different police 
departments, because I think a lot of people in our city feel 
that, for example, the IMF and the World Bank, in terms of 
managing traffic and motorcades, do a great job of cooperating 
with one another, and we can build on that.
    I believe there have been gaps sometimes where we can share 
intelligence and know-how and we have not.
    Senator Voinovich. I would like--and maybe Congresswoman 
Norton can help out, too--to encourage those Federal agencies 
that have separate security departments to reach out and have a 
little better relationship with the D.C. Police Department. Too 
often, I think they have an idea that they just have their 
separate little domain and turf, and they do not really need to 
bother with anyone else. But if they really think about it, 
they could enhance their own capabilities by understanding that 
they do have a symbiotic relationship with a lot of the other 
security forces that you have in the District.
    Mayor Williams. Yes.
    Senator Voinovich. Do you have anything else that you would 
like to share with me today?
    Mayor Williams. I think the thing that we are most excited 
about is using your good offices to broaden this partnership 
that really is emerging between our city and the business 
community, and I think the most spectacular example is what the 
Congress was able to do and our business leaders, the civic 
leadership of the city, with the College Access Program. For 
the first time, that represented the regional and District 
business leadership coming together with government leaders. If 
we can use that model to now expand and include businesses all 
over the country, I think that has exciting possibilities.
    I have talked with the business community here, and our 
goal over the next year is to try to see that every school has 
a business sponsor, and in conjunction with that business 
sponsor, we are getting the very best principals, and we are 
getting a good business manager for each school. This is just 
one example of what that kind of program can develop and 
anticipate.
    Senator Voinovich. I know you have been meeting with the 
business community, and I am anxious to hear what they finally 
agree to do. As I have told you, I have talked with the 
Cleveland Tomorrow people, I have talked with the Cleveland 
Scholarship people, and if you are ever interested in having 
them come in to sit down with you and your business community, 
I would be more than happy to get that done.
    Mayor Williams. Thank you, Mr. Chairman. We appreciate it.
    Senator Voinovich. Thanks for being here today. We will see 
you again.
    Mayor Williams. Thank you.
    Senator Voinovich. Our meeting is adjourned.
    [Whereupon, at 10:40 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T4985.001

[GRAPHIC] [TIFF OMITTED] T4985.002

[GRAPHIC] [TIFF OMITTED] T4985.003

[GRAPHIC] [TIFF OMITTED] T4985.004

[GRAPHIC] [TIFF OMITTED] T4985.005

[GRAPHIC] [TIFF OMITTED] T4985.006

[GRAPHIC] [TIFF OMITTED] T4985.007

[GRAPHIC] [TIFF OMITTED] T4985.008

[GRAPHIC] [TIFF OMITTED] T4985.009

[GRAPHIC] [TIFF OMITTED] T4985.010

[GRAPHIC] [TIFF OMITTED] T4985.011

[GRAPHIC] [TIFF OMITTED] T4985.012

[GRAPHIC] [TIFF OMITTED] T4985.013

[GRAPHIC] [TIFF OMITTED] T4985.014

[GRAPHIC] [TIFF OMITTED] T4985.015

[GRAPHIC] [TIFF OMITTED] T4985.016

[GRAPHIC] [TIFF OMITTED] T4985.017

[GRAPHIC] [TIFF OMITTED] T4985.018

[GRAPHIC] [TIFF OMITTED] T4985.019

[GRAPHIC] [TIFF OMITTED] T4985.020

[GRAPHIC] [TIFF OMITTED] T4985.021

[GRAPHIC] [TIFF OMITTED] T4985.022

[GRAPHIC] [TIFF OMITTED] T4985.023

[GRAPHIC] [TIFF OMITTED] T4985.024

[GRAPHIC] [TIFF OMITTED] T4985.025

                                   - 

</pre></body></html>
